<html>
<title> - ENHANCING EDUCATIONAL AND ECONOMIC OPPORTUNITY IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 109-511]
[From the U.S. Government Printing Office]



 
                                                      S. Hrg. 109-511

   ENHANCING EDUCATIONAL AND ECONOMIC OPPORTUNITY IN THE DISTRICT OF 
                                COLUMBIA
=======================================================================


                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                 THE FEDERAL WORKFORCE AND THE DISTRICT
                        OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2006

                               __________



       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                                 _____


                 U.S. GOVERNMENT PRINTING OFFICE

27-033 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
   Joyce A. Rechtschaffen, Minority Staff Director and Chief Counsel
                      Trina D. Tyrer, Chief Clerk


   OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                  GEORGE V. VOINOVICH, Ohio, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
NORM COLEMAN, Minnesota              CARL LEVIN, Michigan
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                   Andrew Richardson, Staff Director
              Richard J. Kessler, Minority Staff Director
            Nanci E. Langley, Minority Deputy Staff Director
                      Emily Marthaler, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Akaka................................................    11

                               WITNESSES
                       Tuesday, February 28, 2006

Hon. Anthony Williams, Mayor, District of Columbia...............     3
Hon. Sally L. Stroup, Assistant Secretary for Post-Secondary 
  Education, U.S. Department of Education........................     7
Paul Hoffman, Deputy Assistant Secretary for Fish and Wildlife 
  and Parks, U.S. Department of the Interior.....................     8

                     Alphabetical List of Witnesses

Hoffman, Paul:
    Testimony....................................................     8
    Prepared statement with an attachment........................    35
Stroup, Hon. Sally L.:
    Testimony....................................................     7
    Prepared statement...........................................    32
Williams, Hon. Anthony:
    Testimony....................................................     3
    Prepared statement...........................................    25

                                APPENDIX

Questions and answers submitted for the Record from:
    Mayor Williams...............................................    44


                   ENHANCING EDUCATIONAL AND ECONOMIC



                      OPPORTUNITY IN THE DISTRICT



                              OF COLUMBIA

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2006

                                     U.S. Senate,  
                    Oversight of Government Management,    
                            The Federal Workforce and the  
                         District of Columbia Subcommittee,
                                   Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich and Akaka.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. This hearing will come to order.
    Today the Subcommittee on the Oversight of Government 
Management, the Federal Workforce and the District of Columbia 
meets to discuss legislation intended to enhance educational 
and economic opportunity in the District of Columbia.
    As Chairman of this Subcommittee, I understand the special 
relationship between the Federal Government and the District of 
Columbia. Congress shares the responsibility of ensuring that 
the Nation's capital provides a decent quality of life for its 
citizens and reflects the best in America, a shinning city on 
the Hill. People all over the world should come here and it 
should be a model for the rest of the world.
    The Subcommittee is currently considering three bills, two 
of which I have sponsored. They are S. 2060, a bill to extend 
the District of Columbia College Access Act of 1999, S. 1838, 
the Federal and District of Columbia Government Real Property 
Act of 2005, and H.R. 3508, the 2005 District of Columbia 
Omnibus Authorization Act of 2005.
    Since becoming Chairman of the Subcommittee, I have made 
enhancing educational opportunities in the District a top 
priority. It is important that we ensure that the students in 
the District develop their god-given talents so they can take 
care of themselves, their families, and make a contribution to 
society. As a former Mayor, I understand how important a good 
education system is to the vibrancy of a community.
    S. 2060 continues an effort that we began in 1999 when I 
worked with House members, and Senators Jeffords and Durbin, to 
craft the District of Columbia College Access Act, which led to 
the creation of the District of Columbia Tuition Assistance 
Grant Program. The aim of this program is to assist District 
students who do not have access to state-supported education 
systems, in attending college. Since the program's inception, 
the District has seen a 28 percent increase in college 
attendance, many the first in their family to attend college.
    I get goose bumps thinking about that. I have worked on 
many pieces of legislation during my time in the Senate. I must 
tell you that one of the highlights of my career is the 
sponsorship of the D.C. Tuition Assistance Grant program. It 
has meant so much to the District and particularly to those 
students who didn't have the opportunity to attend college.
    Mayor Williams and I were at a graduation last year. It was 
wonderful to have these youngsters get up and testify about 
what a difference the DC TAG Program has made in their lives.
    S. 2060 would reauthorize this important program for five 
more years, expand the program to private colleges and 
universities nationwide, cap the current funding level of $33.2 
million. I would point out that the original authorization 
provided for $17 million. We have really doubled the original 
authorization.
    Mayor Williams, I understand that you have some concerns 
about the bill. I look forward to hearing your remarks.
    The second bill we are here to discuss is S. 1838, the 
Federal and District of Columbia Government Real Property Act 
of 2005. Under this legislation, the Federal Government would 
transfer land to the District of Columbia to be put to better 
use, specifically economic development. The vast majority of 
the conveyance is contained in three large parcels at or near 
the Anacostia River: Poplar Point, Reservation 13, and several 
acres of land near the Robert F. Kennedy Stadium.
    I had the opportunity to spend a couple of hours with the 
Anacostia Waterfront Corporation. I was also very impressed 
with their planning. I was very impressed with what I saw. I 
see the potential that is there. This land could be a terrific 
asset to the District.
    The bill also would transfer buildings and property located 
on the west campus of Saint Elizabeth's Hospital and several 
smaller properties from the District of Columbia to the Federal 
Government.
    Conveying these parcels of land to the District would free 
the Department of Interior and General Services Administration 
from managing property of little value to the Federal 
Government. Additionally, the District would gain the ability 
to spur economic development in Southeast Washington (similar 
to the Chinatown and MCI area in Northwest DC), to better 
address the needs of its citizens and increase the local tax 
base.
    Finally, we will examine H.R. 3508, the D.C. Omnibus 
Authorization Act of 2005. The bill was introduced in the House 
on July 28, 2005, and passed the House on December 14, 2005. 
The bill would authorize a variety of District of Columbia 
decisions and policies that require congressional approval, as 
the matters involved amend the Home Rule Act or other Federal 
laws affecting the District of Columbia's municipal governance.
    We have three excellent witnesses with us today to discuss 
these bills. First, we have Mayor Anthony Williams. We 
appreciate your being here today. It is hard to believe that it 
has been almost 8 years since we first met. You came to 
Cleveland for a couple of days, and as a former mayor, I tried 
to show you the successful public-private partnership that we 
had developed in Cleveland. Mayor, you have done a very good 
job with public-private partnerships and you should feel proud 
of the record that you have made during your terms as Mayor. 
All of us are anxious to see what kind of successor the people 
in the District decide that they are going to elect. I think 
that you set a real standard for the District, and we are 
hopeful that we can get someone of your quality that will 
continue the leadership and build on the base that you have 
built.
    We also have Paul Hoffman of the National Park Service, and 
Sally Stroup of the U.S. Department of Education. Thank you 
both for testifying today.
    Senator Akaka is going to be here in a few minutes. We will 
start with the testimony of our witnesses, and when Senator 
Akaka gets here, we will then give him an opportunity to make 
his opening statement.
    If you would all stand, we have a custom of this 
Subcommittee to swear in the witnesses.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth and nothing but the 
truth, so help you, God?
    Mayor Williams. I do.
    Ms. Stroup. I do.
    Mr. Hoffman. I do.
    Senator Voinovich. Mayor Williams, I am looking forward to 
your testimony. You are on.

 TESTIMONY OF THE HON. ANTHONY WILLIAMS,\1\ MAYOR, DISTRICT OF 
                            COLUMBIA

    Mayor Williams. Good morning, Chairman Voinovich, and thank 
you for your kind words, and I want to also thank Ranking 
Member Senator Akaka, and other Members of the Subcommittee 
with whom we have worked. Thank you, one, for your partnership 
with the City. I remember 7 or 8 years ago visiting with you to 
Cleveland as part of my effort to visit what I thought were 
well-managed cities, Cleveland being one of them, New York, 
Indianapolis, Philadelphia, and it really has, I think, allowed 
us to, and I think you put it very well, Senator, establish a 
base for my success. There is still an enormous amount of work 
to be done, but I think we have made significant progress. I 
thank you for you role in that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Williams appears in the 
Appendix on page 25.
---------------------------------------------------------------------------
    I also thank you for this opportunity to testify to three 
bills currently under consideration before you, and I have 
submitted my full testimony for the record, and wherever 
possible, I will abbreviate my oral testimony this morning.
    I want to first talk about the Federal and District of 
Columbia Real Property Act briefly. It would result in an 
exchange of more than 40 parcels of land totaling more than 220 
acres between the District and the Federal Government, and I 
want to take this opportunity to thank the Office of Management 
and Budget, particularly Director Josh Bolten, the National 
Park Service, and the General Services Administration for 
working closely with the President and with my administration 
to develop a very complex initiative. The legislation 
represents a significant step, I believe we took towards 
stewardship of the land in the District, and ultimately I think 
it is going to help us, as you suggested, Senator, build a 
world class waterfront along the Anacostia, supporting not only 
economic development but the communities that are adjacent to 
it.
    I also believe that it will allow the District to fulfill 
the legacy of planning that was inherent in L'Enfant's original 
plan for the District. Despite the evolution of our city as 
being a small federal enclave to being one of the most dynamic 
regions in the last 20 or so years, many parcels within our 
borders remain underutilized, and opportunities that have the 
potential to really expose a greatness of our city are 
untapped. The Real Property Act of 2005 is a step toward 
addressing unfinished business in the District.
    I also believe the legislation will promote economic 
development and make a more vibrant and prosperous area, not 
only for our city, but for the entire region. I know that you 
believe very strongly, Senator, that the seat of the Federal 
Government should be located in a healthy, vibrant city for the 
benefit of local citizens, for the benefit of foreign visitors, 
for the benefit of investors, and certainly for the benefit of 
employees of the Federal Government, and I believe that this 
bill would allow us to do that.
    Specifically, the 2005 Federal and District of Columbia 
Real Property Act would do two important things. It would 
transfer ownership of two key parcels of land along the 
Anacostia River, Reservation 13, and Poplar Point in order to 
achieve the urban development and environmental restoration 
goals that are outlined in the Anacostia Waterfront Framework 
Plan. As you know, Senator, with the help of yourself, 
Congresswoman Norton and others, we have actually brought 
together a number of private sector partners, nonprofit 
entities, and a number of Federal Government departments--
including the Navy and the Department of Interior--toward 
endorsing this framework plan. Any time I think you can bring 
this far-flung group together to do anything, I think it is 
worthy of note. And by transferring these parcels, the District 
will be able to significantly enhance access to the river and 
parkland and become a destination in its waterfront consistent 
with that plan.
    Now, the second thing that the Act would do is transfer 
several small parcels of land in the vicinity of the Anacostia 
River. Many of these parcels, and I would mention Reservation 
17A along New Jersey Avenue, Southeast, are already under the 
District's administrative jurisdiction and will be components 
of ongoing neighborhood redevelopment efforts. Overall open 
space in the District will improve under the Act by renovating 
existing parkland to create more accessible green space, and I 
will give you an example. The conveyance of Poplar Point under 
the Act will grant residents and visitors easy access to the 
site which is presently hemmed in by roadways, making it 
practically inaccessible, and it also suffers from 
environmental contamination. The Congress through the 
transportation bill has funded work on the rebuilding of the 
Frederick Douglass Bridge which bounds the site. So this would 
be consistent with congressional action already undertaken. 
This site is right across the river from the proposed, and I 
hope soon-to-be-implemented, new baseball stadium on the river.
    Now, conveying title to Federal property in the District 
will not harm the Federal Government, I would add, since 
virtually all of this has no Federal activity at the moment. 
For example, Reservation 13, which is commonly known as the 
site of D.C. General, across East Capitol from RFK, hasn't been 
used by the Federal Government in 157 years; whereas, we 
believe if we had title to the property, we could implement a 
plan to create a vibrant mixed-income community.
    There would be economic benefit to the Federal Government, 
we believe by this, because transferring property to the 
District is going to provide more contiguous park preservation, 
and the National Park Service can speak to this, but I think it 
will make their job easier and allow them to take costs that 
are avoided and put them into other key strategic initiatives 
consistent with the plan of the Park Service and Secretary 
Norton.
    The Real Property Act of 2005 will also provide a sound 
economic benefit to the Federal Government by resolving 
millions of dollars in litigation claims brought by the 
District against the Federal Government. These claims are the 
cause of legal action for the failure, we believe, to reimburse 
the District for costs associated with Saint Elizabeth's 
Hospital. We would waive that as part of this package.
    Finally, I want to emphasize that this Act will provide the 
Anacostia Waterfront Corporation with the tools it needs to 
proceed on implementation of the Anacostia Waterfront 
Initiative. This is an initiative that has been endorsed 
implicitly, for example, by the Administration in a series of 
bills that have funded parts of Anacostia Waterfront 
Initiative. It is consistent with Council legislation. It 
reflects a careful balance, as you know as a mayor and governor 
what you have to do between commercial, residential, recreation 
space, or public amenities in any kind of situation like this.
    Senator, I want to speak on the College Access Act. I 
believe, just to begin with, that the College Access Act is 
something that the Congress ought to be particularly proud of 
because it has been very successful and it is something that 
was sponsored and initiated by the Congress. In fact the 
District of Columbia Tuition Assistance Program has been a 
tremendous success, as you recalled Senator, since its 
inception in School Year 2001-2002. For the most recent school 
year, for example, 2004-2005, 4,754 students received funding 
from the TAG program.
    Recognizing the success of the program, the President 
requested and Congress approved $33.2 million to continue the 
program in 2006. By continued support for this successful 
program, the Administration certainly understands the 
importance and value it has brought to young college-bound 
residents of the District of Columbia, who would not have had 
an opportunity to attend a 4-year institution without this 
successful program.
    The TAG program, as it is called, is a marquee Federal 
initiative established by the Congress. It compensates the 
District for our lack of a State university system that the 
rest of the country enjoys by allowing our high school college-
bound students to attend out-of-state public universities, as 
you know. Now, unfortunately, the program's costs have 
continued to grow rapidly due to two things, both outside of 
our control: One, rising tuition costs nationwide; and, two, a 
good thing but it has had a financial impact--rising program 
participation.
    The program provides grants up to $10,000 annually for 
District students to attend eligible colleges and universities 
at in-state tuition rates. It provides grants of up to $2,500 
for students to attend private institutions in the DC 
metropolitan area and private historic black colleges and 
universities as well as public 2-year community colleges. In 
2005, our students were enrolled in universities and colleges 
in 45 States across the country, the District, and the U.S. 
Virgin Islands.
    Now, the program has had many successes. In June 2004, the 
program graduated its first class. The second class graduated 
in June of last year, and you referred to that, Senator. For 75 
percent of the students surveyed at Woodson High School in the 
District, TAG affected their decision to pursue post-secondary 
education, and 65 percent of these students have said that the 
program has also affected their school choice. Also important 
to me is that 55 percent of the participants are first members 
of their immediate family to attend college.
    Now, while I welcome changes to the program that would 
expand benefits and eligibility, any change would have to be 
considered within the context of the overall viability, 
financial viability, of the program. Expanding participation to 
all private schools would, for example, provide many more 
options to District residents, but it would also extend the 
current fiscal challenges faced by the program.
    In recent years, as I mentioned earlier, costs have risen 
dramatically for the program because of rising participation 
and tuition costs. I appreciate the Congress' broad support for 
these increased needs, and I understand that the Congress is 
concerned about costs exceeding available Federal funds. There 
are several options that are available to address these costs 
which I have to be, as a realist, willing to explore. Some that 
have been mentioned are making a pro rata cut in each 
participant's grant award, restricting the number of 
participating colleges and universities, reducing the maximum 
amount awarded, or making the program need-based. I have to 
say, though, Senator, that all such options are very attractive 
to me because this has been a very successful program, and I 
think that these options would detract from its success, and I 
would hope to keep the existing program in tact to the greatest 
extent possible.
    When you think of a program initiated by the Congress that 
invests in college matriculation and successful graduation and 
you look at the costs that are avoided by the District at the 
local and State level and by the Federal Government in 
everything from substance abuse, criminal justice system, and 
penal institutions, I think it is a very easy case to make that 
the overall program return on investment by this strategic 
congressional initiative ought to be realized and the program 
continued.
    Once again, Mr. Chairman, I thank you for the opportunity 
to testify. I look forward to answering any or all of your 
questions.
    Chairman Voinovich. Thank you, Mayor. Ms. Stroup.

 TESTIMONY OF THE HON. SALLY L. STROUP,\1\ ASSISTANT SECRETARY 
   FOR POST-SECONDARY EDUCATION, U.S. DEPARTMENT OF EDUCATION

    Ms. Stroup. Good morning. Thank you for inviting the 
Administration to testify today, Mr. Chairman. I am here to 
testify on behalf of the District of Columbia Tuition 
Assistance Grant Program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Stroup appears in the Appendix on 
page 32.
---------------------------------------------------------------------------
    The Administration shares Mayor Williams' goal of bettering 
the lives of residents of the District of Columbia through 
improved educational opportunities. We appreciate his efforts 
on behalf of the elementary, secondary, and post-secondary 
students in the District. The Administration strongly supports 
the reauthorization of the District of Columbia College Access 
Act of 1999.
    As you noted and the Mayor noted, it was designed to 
provide eligible college-bound students living in the District 
with greater choices among institutions of higher education. 
Its accomplishing its goal. The numbers are pretty staggering, 
I think, when you talk about the growth in the program in the 
short time it has been in existence. I do think we need to give 
credit to the Mayor and the City Government for their work in 
implementing this program. They have been managing this program 
since its inception and they have worked to administer it on 
behalf of the residents of the District. As with any new 
program, it takes a lot of hard work to get the program to work 
efficiently, to make sure you have all of the implementation 
kinks worked out, to make sure it is effective on behalf of the 
students. The increasing number of students who are benefitting 
in this program each year, I think, is evidence that the 
program is working on behalf of the District's residents.
    As the Mayor noted, there are more than 4,700 students 
enrolled in the program, but I think what is striking about 
that is that there are 600 colleges who are currently 
participating in the program. They have signed agreements with 
the District. As someone who works at the Department of 
Education on higher education matters, I can tell you that 
dealing with hundreds of colleges, all who have their own rules 
and procedures, is never an easy task. So the fact that the 
Mayor has been able to get all of the institutions who have 
students enrolling there willing to participate is certainly a 
credit to the District, and they should be commended for their 
hard work.
    The statistics are impressive, as we said, but I think the 
statistics you mentioned are actually more important when we 
talk about the students who benefit from this program, how many 
of them would not have gone to college if not for this program, 
and, as you noted, how many of them are first-generation 
college students. It is certainly one of the most important 
things we can do on behalf of the students in this country.
    Our budget request, as you mentioned, is at $35.1 million. 
It is an increase of $1.9 million over 2006, and we believe an 
increase is needed in order to keep pace with rising tuition 
costs and increased student participation. As the Mayor noted, 
tuition is going up. It is a fact of life. I don't see it 
changing any time soon. We track tuition increases every year 
at the Department to make sure we know what is going on. I 
think States are working on controlling tuition costs, and 
institutions know that Congress is certainly watching their 
tuition increase across the country. At the end of the day, we 
still see tuition increases anywhere from 4 percent to 9 
percent on average. That seems to have actually stabilized at 
those rates compared to days when we were seeing double-digit 
increases in tuition rates.
    As you know, 90 percent of the fastest growing jobs in this 
country require some post-secondary education. We want students 
living in the District to have an opportunity to pursue the 
education that will help them get one of those jobs. This 
program, when you add it to and think about it in the context 
of the $80 billion that the Federal Government will make 
available in Federal student aid this year, will really help 
all of our students pursue their dreams of college education. 
We do believe that is the priority of the Administration.
    That completes my testimony, and I would be happy to answer 
any questions, Mr. Chairman.
    Chairman Voinovich. Thank you very much. Mr. Hoffman.

 TESTIMONY OF PAUL HOFFMAN,\1\ DEPUTY ASSISTANT SECRETARY FOR 
  FISH AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hoffman. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hoffman with an attachment 
appears in the Appendix on page 35.
---------------------------------------------------------------------------
    My name is Paul Hoffman. I am Deputy Assistant Secretary 
for Fish, Wildlife, and Parks with the Department of the 
Interior, and I am here today to testify, on behalf of the 
Department, in strong support of S. 1838, the Federal and 
District of Columbia Real Property Act of 2005. We do have some 
clarifying amendments we would like to recommend, and I will 
get to those in the course of my testimony. This is a bill that 
was submitted by the Administration last July, and I have 
submitted written testimony for the record.
    A little bit of personal background: I come from a small 
community called Cody, Wyoming where I was involved in Chamber 
of Commerce work and economic development and actually was 
engaged in getting some legislation passed for the sale of some 
land to us for the purpose of economic development. I now have 
the opportunity to represent the Secretary of the Interior on 
the Board of Directors of the Anacostia Waterfront Corporation, 
and it is a real distinct honor for me to watch landscape 
community redevelopment and revitalization and to see the plan 
that the city has put together and to have an opportunity to 
help implement that plan over time.
    There is an interesting similarity between the land 
ownership pattern in the District of Columbia, the Federal land 
ownership pattern, and the land ownership pattern in the west, 
yet there are some unique differences as well. Clearly there is 
a strong relationship between the Federal Government and the 
District of Columbia as established by the Constitution, and 
this is our Nation's capital, as you mentioned in your opening 
remarks.
    There are two major purposes to this piece of legislation. 
The first and foremost is to facilitate the shared goals of the 
Anacostia Waterfront Framework plan. Mayor Williams began the 
public planning process for this in March 2000, and the plan 
was adopted in December 2003. The D.C. Federal Agencies 
Memorandum of Agreement was set out ``. . . to contribute to 
the revitalization of the surrounding neighborhoods, provide 
enhanced park areas, develop government-owned land for the 
benefit of the people of the District and the Federal and 
District Governments, where appropriate; increase access to 
water, where appropriate; and enhance visitor participation in 
the activities and opportunities provided along the new 
waterfront.''
    A second major purpose of this legislation is to improve 
the management of National Park Service lands within the 
District of Columbia. The bill has several components, and I am 
going to focus my testimony on Titles II and III of the bill. 
Title I is the GSA transfer of the hospital which the Mayor 
spoke to. The other two titles basically break down between 
transfers of jurisdiction, which are authorized under current 
laws, and conveyance by deed, and I will clarify those as we go 
forward.
    The bill will transfer jurisdiction from the District of 
Columbia to the National Park Service for a variety of 
properties within the District that are for the most part 
platted roads that have never been built, and those roads are 
contained within other National Park Service units now, and 
this will clean up boundaries and facilitate enhanced 
management of those sites as park areas for the citizens to 
enjoy. It also includes transfer of jurisdiction back to the 
National Park Service for access that was formally provided for 
the proposed Mayor's residence that was not built. Then the 
last transfer is for the transfer of the triangle over here by 
the Capitol for the construction of the American Veterans 
Disabled for Life Memorial. There are two pieces of land set 
for transfer within the bill. We have worked very closely with 
the Architect of the Capitol and the U.S. Capitol Police on 
that, and after working with them, we determined that in order 
to address traffic concerns and pedestrian safety, that the 
south piece, the piece south of C Street, should not be 
transferred. Just the north side of C Street should be 
transferred. So that is the first clarifying amendment.
    The second set of transfers is from the National Park 
Service to the District of Columbia. This includes access to 
D.C. Public Works sites, giving DC access to portions of Canal 
Road, Fort Reno Salt Dome and leaf collection facilities, 
Eastern Market Metro, 8th and M, Southeast commercial 
development area, the Mount Vernon Square City Museum, and the 
Florida Avenue Parks. This will not adversely affect National 
Park Service management of their lands within the District of 
Columbia at all.
    Now, for the conveyance by deed, there are two properties 
proposed to be transferred or conveyed by deed from the 
District of Columbia to the National Park Service. Those are 
lands along the C&O Canal that were originally part of the 
Georgetown plan and so all were deeded in the name of the 
District of Columbia, and this would facilitate management of 
the park there, and also Needwood, Niagara, and Pitt Streets, 
which would allow improved maintenance and the removal of a 
couple of dead-end roads in Rock Creek Park.
    Conveyance by deed from the National Park Service to the 
District of Columbia includes several small parcels, a former 
DC transfer facility, the Randall School parklands, Potomac 
Avenue, Southeast triangles, Virginia Avenue, Boathouse Row, 
and Waterside Mall. Also included among those properties would 
be the Reservation 174 triangle at the former Convention Center 
site, and we would ask that a clarifying amendment be added to 
this bill to address our desire that in the planning for the 
redevelopment of the Convention Center site, that at least one 
of the options considered in that plan includes keeping the 
triangle itself as open space. It is consistent with the 
original design and triangles of the L'Enfant plan. Generally 
speaking, the plan ought to include at least that amount of 
open space retained in the redevelopment in all of the options. 
The Mayor mentioned 15 acres near RFK Stadium, and we support 
that transfer, and then there is the 100 acres at Poplar Point. 
Sixty-five acres are currently occupied by National Park 
Service facilities. Thirty-five of those acres are the former 
tree nursery for the District of Columbia and the Architect of 
the Capitol. There is a little bit of a cloud on that title, 
and this conveyance will clear that up. The bill would require 
the District to retain 70 of those 100 acres in parkland-type 
conditions, and we would like to recommend a clarifying 
amendment with respect to that, that the parkland maintenance 
be included in a restriction on the deed of conveyance.
    We also believe that there should be a provision in the 
bill to make the overall agreement third-party enforceable. 
And, last, the District of Columbia, as the Mayor mentioned, 
would assume the environmental liability associated with these 
properties.
    The bill does require the District to replace the National 
Park Service facilities at no cost, and we would ask that there 
be an amendment to clarify the bill, that those facilities 
would be provided at no cost upon the Secretary's approval, and 
that all rights, title, and interest would be transferred 
unencumbered to the National Park Service when complete.
    In conclusion, Mr. Chairman, this is a package. It was 
carefully negotiated among a number of us; OMB, the District of 
Columbia, the Anacostia Waterfront Corporation, and the 
Department of the Interior were all involved. It has been 
carefully put together, and we believe it represents a good 
package. I will not say it is an equal value exchange, but it 
is a good package that represents benefits for both the 
District of Columbia and the National Park Service. A healthy 
DC economy, a healthy environment, and the good healthy 
community is beneficial to the Federal Government, its leaders, 
its employees, and the visitors to our Nation's capital.
    Thank you, Mr. Chairman.
    Chairman Voinovich. Thank you very much, Mr. Hoffman. We 
are pleased that Senator Akaka has joined us.
    Senator, would you like to make an opening statement.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Yes. Thank you very much, Mr. Chairman.
    I first want to welcome all the panelists, Mr. Mayor, Ms. 
Stroup, and Mr. Hoffman.
    May I apologize for being late. I was in the press 
conference on Katrina and telling the story of the devastation 
that I saw there--this was about 5 months ago--all of the good 
people that have come back and restored the energy and 
infrastructure as well as the energy distribution there, and 
also to make a commitment that I would continue to support the 
efforts to help the Gulf Coast. That is why I was a little 
delayed, and I thank you for being so patient, and I want you 
to know that in my time here in the Senate, I have enjoyed 
working with our Chairman and look forward to the tough 
assignments that we have facing us in the future.
    So I want to thank you, Mr. Chairman, for having this 
hearing, and we know that it is this Subcommittee's 
responsibility to oversee the management of DC without 
intruding on the right to self-govern, commonly referred to as 
D.C. Home Rule. We want to be sure that there is that 
understanding.
    I am proud to be a cosponsor of the S. 2060 which 
authorizes the District of Columbia Tuition Assistance Grants 
Program, As a Federal City, DC does not have a State university 
system such as the University of Hawaii system, which has 10 
campuses and educates over 50,000 students every year. To fill 
this need, DC TAG provides funding for DC residents to attend 
colleges and universities across the country. DC TAG has 
increased college enrollment in the District by 35 percent 
since the year 2000. As a former educator, I firmly believe all 
Americans should have access to a college education, and I am 
pleased to support a bill which helps to make that happen.
    Under the District of Columbia College Access Act, the 
Mayor has authority to implement cost-saving measures to the DC 
TAG program in order to keep the overall cost of the program 
closely to the originally authorized amount of $17 million. 
However, the program has exceeded the authorized amount by 
almost 50 percent. This increase means that most students are 
attending college, which pleases me; however, we need 
assurances that the costs of this program will not continue to 
grow so quickly. I understand, Mr. Mayor, that you do not want 
to restrict DC TAG, but it may be necessary. What you will do 
to ensure that the costs for DC TAG stabilize is a question we 
would like to have answered.
    So thank you very much, Mr. Chairman.
    Senator Voinovich. Thank you, Senator.
    Thank you all for your testimony. I would like to start by 
pointing out that this Subcommittee and Congress have been very 
sensitive to the needs of education in the District. Mayor, 
because of your backing we have now have $14 million for a 
voucher program in the District. We have $14 million for 
charter schools, and we increased the District's money for 
public education to $14 million. One of these days, I would 
like to hear how those programs are working in the District.
    I am particularly interested in the voucher program. 
Because I supported this program, I didn't get the endorsement 
of the Ohio Education Association even though several years 
ago, they said that no governor had done more for education 
than myself. I do believe in the voucher program, and I am very 
proud that the program we instituted in Cleveland went to the 
U.S. Supreme Court, and they ruled that it was constitutional.
    Mayor Williams, do we have the folks responsible for 
managing the DC TAG program here today? Would you introduce 
them? I understand they are doing an outstanding job.
    Mayor Williams. Yes. We should recognize Deborah Giss as 
the State educational officer for the District. She is actually 
a former teacher. She revived volunteer efforts in the 
District. She has done an extraordinary job. She is sitting 
right there, and she is responsible for the program overall as 
State education officer. And John Parham is the Director of the 
TAG program itself.
    Senator Voinovich. I am glad that you are here today. I 
understand that you have done an outstanding job of 
administering the program. Thank you very much for your 
leadership and good work.
    As we discuss DC TAG, we must point out the private sector 
support for this program. We have a public-private partnership 
here. The D.C. College Access scholarship program was modelled 
after the Cleveland scholarship program and has been very 
successful. Mayor, how many of the DC TAG students also receive 
the DC CAP scholarships? Do you have that statistic available?
    Mayor Williams. I can get you that exact number. It is a 
very high number. I actually think that one of the tremendous 
attributes of this program is the way that it has leveraged a 
public-private partnership, and I will give you just one 
example. People ask me, the people I am supporting for 
ownership of this baseball team, and my primary reason for 
supporting one group over another is that some key members of 
this group have been very instrumental and pivotal in the 
college access program. I think it is a tremendous example of 
directed focus, productive philanthropy working with 
government.
    Senator Voinovich. I want to congratulate the private 
sector involvement for supporting this program. I understand 
through the grapevine that there is probably going to be an 
increase, a substantial increase, in the amount of the 
scholarships that are available to the students in the 
District, and I think that is just great.
    That is the other side of this program, Senator Akaka, that 
this is not exactly the yeast that raises the dough. In 
addition to the money we are putting in this program, we do 
have the private sector who is participating significantly to 
help these youngsters that need more help than what is 
available through the DC TAG program.
    Mayor Williams, the bill as we have introduced it, expands 
the program to private schools nationwide. There are several of 
my colleagues in the Senate who feel that if we are going to 
have private schools available, that it should go beyond the 
District of Columbia, Maryland, Virginia, and historic black 
institutions that are private. I would like to know what you 
think about the expansion impact it would have on the program. 
In the alternative, would you suggest that maybe we limit the 
participation of private schools in the program to just those 
that were originally in the program, those in the District, 
Virginia, and Maryland? Could we hear from you on that?
    Mayor Williams. Well, Mr. Chairman, I would prefer to see 
the program remain according to its original parameters with 
the private colleges limited to the immediate area, because we 
have seen that this is really reflective of the original 
development of the Act. It really is informed by what the 
students' choices actually are.
    I also want to mention or make a point here that I think 
when you consider the two costs that are driving this program, 
one, tuition increase and, two, the attendance and the 
enrollment. While we can't control the tuition costs, we 
believe that the enrollment is going to stabilize over the next 
couple of years once we have a full cohort of students. As 
Senator Akaka was referring to, I don't think we are going to 
be seeing these double-digit percentage increases in the 
program and the allotment for the program year by year, and I 
would prefer to control it that way and would pledge to control 
it that way, rather than changing the program in terms of 
allowing attendance at private schools across the country. From 
a programmatic point, I think, limiting the amount that we can 
offer each student or limiting the number of students because 
we only have a limited amount of money is the prefered way.
    I could get you exact figures of what we estimate the 
impact of that would be.
    Senator Voinovich. Yes. I would like to see. In other 
words, your initial reaction is that you are not supportive of 
expanding it to private schools around the country?
    Mayor Williams. One, because I think it would have a 
program impact and, two, I think the original idea implicit in 
the program--there is an exception for private schools in the 
immediate area, but the original point was the District doesn't 
have its own State university system. So it made sense to 
extend this option to students to State systems across the 
country as opposed to private schools across the country. I 
just think it is more consistent in the design and architecture 
of the program.
    Senator Voinovich. If we limit it to the original schools 
that were included in the private schools, that would mean that 
we would cut back on providing money for private HBCs.
    Mayor Williams. It could. I mean, it is a balloon, and any 
time you push on one area, it is going to affect another area.
    Senator Voinovich. The original legislation was intended to 
mimic or mirror what we do in a State. If a student goes to a 
public university, they are provided the tuition subsidy, and 
if they want to go a private school, it would be a private 
school in the District or Maryland or Virginia with the concept 
that it be much like the State. Congress later expanded it to 
include private historic black colleges.
    Mayor Williams. Twenty five thousand dollars, right.
    Senator Voinovich. I am concerned that if we limit it to 
the private schools that were in the original bill, I am sure 
we will catch a lot of flack from the private historic black 
colleges around the country. Some of my colleagues are saying, 
if you make it available to them, why don't you make it 
available to everybody else. This has been a real issue because 
the Senators felt that it wasn't fair.
    The other thing is this: I think Senator Akaka made the 
point, is we are concerned about the cost of the program. I 
know there has been some discussion that we build an 
inflationary factor in the funding of the program, possibly the 
average cost increase in tuition. I don't think I would support 
that because it is more like an open door in terms of the 
finances. Perhaps a cost of living increase would be a fair way 
of doing it.
    Is there any reaction to this?
    Mayor Williams. I can understand why the Senate and the 
Congress, in general, would want to have some kind of objective 
basis for making an inflationary adjustment and not leaving it 
kind of open-ended for the schools to develop on their own, so 
that there is negotiating pressure, and I could support the 
Congress establishing some objective yearly adjustment and then 
with the understanding we on our end would work on the 
enrollment side to keep the program roughly within bounds in 
the out years.
    Senator Voinovich. I know that there have been some efforts 
to keep the costs down. Are you currently negotiating with 
universities who have high numbers of DC TAG students attending 
to receive a lower rate on tuition.
    Mayor Williams. We are considering that as a possibility, 
because there are some universities with a number of our 
students. Basic business practice is you would want a volume 
discount of some sort. It just makes sense.
    Senator Voinovich. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I didn't 
give my full statement. I would like to have my full statement 
entered into the record.
    Senator Voinovich. Without objection.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Thank you, Mr. Chairman, for convening this hearing to review 
legislation affecting the District of Columbia. It is this 
Subcommittee's responsibility to oversee the management of DC without 
intruding on its right to self-govern, commonly referred to as DC home 
rule.
    I am proud to be a cosponsor of S. 2060, which reauthorizes the 
District of Columbia Tuition Assistance Grants program (DC TAG). As a 
Federal city, DC does not have a state university system, such as the 
University of Hawaii system which has 10 campuses and educates over 
50,000 students every year. To fill this need, DC TAG provides funding 
for DC residents to attend colleges and universities across the 
country.
    DC TAG has increased college enrollment in the District by 35 
percent since 2000. As a former educator, I firmly believe all 
Americans should have access to a college education, and I'm pleased to 
support a bill which helps make that happen.
    Another piece of legislation before us today is the Federal and 
District of Columbia Government Real Property Act, S. 1838, which will 
transfer public land between the District of Columbia and the Federal 
Government. I support the Administration's effort to alleviate a 
portion of the structural imbalance--a term used to describe the 
difference between the cost of providing basic public services in DC 
and the District's tax revenue--which the Government Accountability 
Office estimates is between $470 million and $1.1 billion, and at the 
same time better utilize land in the District.
    However, I do have some concerns about the lack of accountability 
in the bill as it is currently drafted. I am working with the Chairman 
to add provisions to S. 1838 that will enable Congress to oversee the 
District's use of the land. I thank the Chairman for his cooperation on 
this issue.
    I look forward to discussing this legislation today and I welcome 
our witnesses to the Subcommittee. Thank you, Mr. Chairman.

    Senator Akaka. Mr. Chairman, I have been concerned about 
some aspects of the Real Property Act, but I also support parts 
of the bill as well. In particular, I support the 
Administration's effort to alleviate a portion of structural, 
what we call the structural imbalance, which GAO estimates is 
between $470 million and $1.1 billion and at the same time 
better utilize land in the District. However, and this has been 
evident in the discussion here, I do have some concerns about 
the lack of accountability in the bill as it is currently 
drafted. I am working with the Chairman to add provisions to S. 
1838 that will enable Congress to oversee the District's use of 
the land, and I thank the Chairman for his cooperation on this 
issue.
    Mayor Williams, Chairman Voinovich and I are working on 
adding accountability provisions to the Real Property Act to 
ensure that the land is utilized effectively. Mayor Williams, 
what are your thoughts on additional language to hold the 
District accountable for carrying out its development plans?
    Mayor Williams. Well, Senator Akaka, I recognize that the 
Congress would want to maintain some oversight in the out years 
in the implementation of the land transfer. While I couldn't 
and wouldn't support the transfer being conditional, I would 
support as an accountability measure periodic reports by the 
District to Congress on the implementation of the Act and the 
accomplishment of certain agreed-upon outcome measures.
    Senator Akaka. Thank you. I would like to ask you to 
provide for the record any suggestions for language increasing 
the accountability of the District to Congress in ensuring that 
District follows through with its land development proposals in 
a timely manner.
    Mayor Williams. I will do that, Senator, and I would work 
with Congresswoman Eleanor Holmes Norton, who I understand has 
joined us, in those agreed-upon measures and timetables.
    Senator Akaka. Thank you. I would appreciate that.
    Mayor Williams, previous DC development projects have been 
slow to get off the ground or have stalled completely. How will 
you ensure that the land you receive from the Federal 
Government in the Real Property Act will be utilized 
effectively and efficiently?
    Mayor Williams. I think a couple of things, Senator. I 
think there have been some cases where some land economic 
development initiatives have slowed or stalled. There are cases 
like that in every city and there certainly are cases like that 
in the District, but I have made it a point in my 
administration over the last 7 years to create a client for 
investment in the District. We have seen some $40 million of 
investment in the District, one of the strongest if not the 
strongest office economy in the Nation, a strong retail 
economy. I think this investment has flown into the District 
because we have shown the ability to expedite a process in a 
public-private partnership to see that business goals are 
realized, and that is the same commitment and diligence that we 
would bring to the implementation of the land transfer. That is 
number one.
    Number two, we have worked with the Administration, with 
the Congress, with the cabinet agencies, community 
organizations, a multi-party partnership on the Anacostia 
Waterfront Initiative. Precisely so, we have laid the ground 
work to actually get the work done. A lot of the preliminary 
work in terms of collaboration, consultation, vision, 
development has already been done. So we are ready to hit the 
ground running now with the enactment of this bill.
    So those are two things I would say to that, Senator.
    Senator Akaka. Mayor Williams, I know my staff has received 
plans from the Anacostia Waterfront Corporation that provide a 
greater level of detail than is provided in your testimony of 
how the District intends to utilize that transferred land. So I 
would like to request that those plans be submitted for the 
record.
    Mayor Williams. Yes, sir. We can submit all that material 
for the record and will do so.
    Senator Akaka. Thank you. Mr. Mayor, you are retiring at 
the end of this year. What steps have you taken or will take to 
ensure the development plans that you just told us about will 
transcend administrations?
    Mayor Williams. Well, contrary to some opinion, Senator, 
the overwhelming majority of the legislation that I have 
submitted to the District Council has been approved. I will 
give you another statistic. The Federal funding in categorical 
terms for the District is at its greatest level since the 
expiration of the Federal payment, and I think that is because 
I have been able to build partnerships with Congress and the 
District Council, to put in place a firm climate for investment 
in the District.
    One example of this is executing and implementing the 
National Capital Revitalization Corporation; which is 
responsible for neighborhood development in the District; the 
Downtown Partnership that was responsible kicking in and 
getting started the Downtown Partnership in the District; and, 
last, working with Congresswoman Norton and, again, a cast of 
literally hundreds of people to establish the Anacostia 
Waterfront Initiative. I try to do this on a bipartisan basis. 
For example, the chairman of Anacostia Waterfront Corporation 
is a former Mayor of Indianapolis, Steve Goldsmith. I think he 
is still a Republican. I am never sure. He is the chairman of 
it. I have a number of District leaders, downtown as well as 
neighborhood, on the initiative. The initiative's ground work 
and enabling legislation has been endorsed by the Council and 
implicitly by the President in yearly appropriations, and so I 
think there has been tremendous work done to see to it that the 
vision that we will submit to you is as part of the record can 
be realized according to specific timetables that we can share 
with you working with the Congresswoman.
    Senator Akaka. Thank you so much, Mr. Mayor for your 
responses. My time has expired.
    Mayor Williams. Thank you, Senator, for support of the 
District.
    Senator Voinovich. Mr. Hoffman, listening to your 
testimony, there were a series of amendments you discussed. 
Have all of those amendments been vetted with the District, and 
is there consensus on all of them, or is there a difference of 
opinion?
    Mr. Hoffman. My understanding, Mr. Chairman, is that we are 
in agreement on all of those amendments unless the Mayor--I 
think we are all in agreement with those. If I could add to the 
Mayor's answer to Senator Akaka's question, the Act does refer 
to the greatest extent practicable, the plan is consistent with 
the Anacostia Waterfront Framework plan, and I believe that 
provides a good basis for accountability. The Anacostia 
Waterfront framework plan was a huge public planning effort, 
thousands of people involved, as the Mayor has articulated, but 
it was also subsequently backed up with a memorandum of 
agreement signed by 20 different DC and Federal agencies.
    So you have a very well-grounded, well-supported plan that 
is in place that provides the protocol and the guidance for 
implementation of this Act once passed.
    Senator Voinovich. I can assure you that I will ask those 
who are responsible to come back to the Subcommittee to update 
us on the progress of the land development. As I mentioned, I 
visited the land being transferred and the headquarters for the 
Anacostia Waterfront Corporation. I was very impressed with 
what they have planned. So often the question is whether you 
are going to get the investors to see the land developed. I was 
also pleased to see that there was a sensitivity to the people 
who live in the neighborhood, which I think is very important.
    Along that line, we received a letter, Mayor, from D.C. 
Councilman Vincent Grey who represents the neighborhood where 
the RFK property is located. It is our understanding that the 
preference for the use of this land is for a public boarding 
school, specifically the Seed Charter School. Mr. Grey 
indicates that his constituents disapprove of this land being 
used for a boarding school. Has the District had any public 
hearings on the use of this land and has the District decided 
the boarding school is going to be built there, or is that 
still something that is open to negotiation?
    Mayor Williams. I think that Councilman Grey does a good 
job, but I think the letter was premature. It is too early and 
premature to really conclude that the neighbors, and the 
citizens in the area adjoining that parcel, feel one way or the 
other. I could bring you just as many people who are strongly 
supportive of what the Seed School is trying to accomplish. I 
am very strongly supportive of the Seed School, but we are 
still in a negotiating period with the neighborhood, and so I 
think that letter is premature.
    Senator Voinovich. So you are still negotiating?
    Mayor Williams. Yes, sir.
    Senator Voinovich. Mayor, in your testimony, there wasn't 
anything in here about H.R. 3508. Are there any provisions that 
you would like to highlight? Are there any provisions that you 
have concerns about? In your written testimony you focused on 
several amendments you would like to have added to H.R. 3508. 
How important are these amendments and why weren't they 
included in the House bill?
    Mayor Williams. I can get back to you on why they weren't 
included in the House bill. I am not exactly sure why. I don't 
really have any particularly strong reservations or 
qualifications to the omnibus bill, which is why I really 
focused my testimony on the land transfer and the College 
Access Act.
    Senator Voinovich. You did focus on several amendments that 
you would like added to the bill. How important are they, and 
if we didn't get the cooperation of the House, and they 
indicate that they aren't going to be supportive of them, what 
would you say then?
    Mayor Williams. Well, for example, there is an amendment to 
Section 123. Section 123 would facilitate private sector gifts 
of money and tangible property to the District's public library 
system. The amendment which was adopted by the District's 
Council would amend congressional language contained in the 
Appropriations Act of 2003, which constrains the ability to 
give gifts to any District Government Agency except the Mayor, 
Council, public schools, and the courts. This would allow us to 
pursue direct-giving to the libraries. For example, last year 
21 computers were donated to the library system by Friends of 
the Cleveland Park Library. Many months later, did each library 
branch actually receive a computer? Well, current law requires 
a circuitous process for review and acceptance of these kinds 
of gifts. In a situation where I have put together a 
comprehensive library task force, where I have consulted with 
the First Lady on our library task force and where the 
President's budget includes a major gift to our library system 
predicated on a public-private partnership, this amendment is 
absolutely essential. It is very important to allow that giving 
directly to the libraries.
    To give you an example, Mr. Chairman, what I am really 
trying to do is really mimic the partnership that you see 
between private giving and the CAP program--incidentally, 
Angelica Rodriguez, who is the director of that program is 
here. I want to recognize her--and the DC TAG program, private 
giving and the public contribution to the library system. So 
the amendment to Section 123 is important.
    Amendment to Section 303, there is a need to amend Section 
303 of the Omnibus Authorization Act in order the address a 
problem affecting the Civil Service Retirement System (CSRS). 
Annuitants who are re-employed by the District under Title V, 
an annuitant who is re-employed is subject to a salary offset. 
The District Government found that re-employed CSRA annuitants 
were receiving disparate treatment based on whether their 
original employment with the District was before or after 
October 1, 1987. Those hired before are subject to a salary 
offset, and those hired after that date are not. So we want to 
stop this disparity. It is a classic example of where an 
arbitrary date can create a real disparity and we have an 
impact.
    So those are the two amendments that I would focus and 
highlight on.
    Senator Voinovich. My suggestion is that someone from your 
office sit down with Congressman Davis, because when we start 
moving this through the Subcommittee, I wouldn't want to end up 
with a problem that would cause this bill not to become law 
this year.
    Mayor Williams. Yes, sir.
    Senator Voinovich. Senator Akaka.
    Senator Akaka. Yes. Thank you very much, Mr. Chairman. 
Because it was mentioned, I want the acknowledge the presence 
of Congresswoman Norton in the room. Will you raise your hand?
    Hi. How are you?
    Senator Voinovich. I didn't even see her back there.
    Senator Akaka. I asked her to do so because I was looking 
and I haven't seen her. Now I know where you are.
    Senator Voinovich. Usually, she is not hiding out.
    Senator Akaka. Thank you for coming to our hearing.
    Mayor Williams, it is my understanding that DC wants to 
take responsibility for the environmental clean-up of the land 
transferred from the Federal Government. How will the District 
pay for the clean-up?
    Mayor Williams. Senator, we believe that the value of the 
land to be transferred on a square foot basis is more than 
adequate to compensate the District for the cost of 
environmental remediation. As part of the overall negotiation 
with the Federal Government, this is something we were willing 
to accommodate.
    Senator Akaka. Will the District perform the clean-up 
itself or will the responsibility be passed to developers as a 
condition of purchasing the land?
    Mayor Williams. I think, Senator, it would really be on a 
case-by-case basis. In some of the negotiations with the 
developers, the developers assume the responsibility. Even 
though it is the owner's responsibility, the developer, as an 
offset to the price paid, will take care of clean-up. In other 
cases, as part of land assembly and site preparation, the 
District would do it. So it would be difficult for me to say on 
an across-the-board basis that we would do it one way or the 
other.
    Senator Akaka. I asked that because I am concerned that a 
private developer may not have the best interest of DC 
residents at heart. Can you tell me how you will oversee the 
developers to ensure the land is properly decontaminated?
    Mayor Williams. Yes, sir. We are working on a bipartisan 
basis. I put in place a Mayor's Environmental Council. Jim 
Condit, as the President's environmental advisor, for example, 
is on the Council, along with the former chairman on the other 
side of the aisle was Former Secretary of Interior Bruce 
Babbitt. So they advised me on the regeneration improvement of 
the District's environmental policies and affairs. One of the 
things we have done is to create an environmental department 
analogous to a State Department of the Environment.
    One of the things we wanted to do was to standardize and 
improve the execution and oversight of environmental 
remediation. So we now have in place an infrastructure to 
ensure that, in cases such as this, the environmental 
remediation will be successfully accomplished.
    Senator Akaka. Mayor Williams, I have mentioned that the DC 
TAG program has had management problems tracking whether grant 
recipients graduate from college and what they do and what they 
go on to do after college. Such tracking is a basic tenet of 
good grant management. Has a system been put in place to track 
the participants of the DC TAG program so that the benefits of 
this program can be better quantified?
    Mayor Williams. Yes. I understand from the director that we 
are working with a national clearing house to track our 
students as a cohort into their post-graduation years. I know 
that they are also working in conjunction with the U.S. 
Department of Education to ensure eligibility and to work in 
cooperation with the Federal Government to track the students 
who are entering the program as well.
    Senator Akaka. This hearing has been dedicated to education 
and economics. Mr. Mayor, will you please explain how you will 
ensure that the DC land that was received from the Federal 
Government economically benefits all DC residents, specifically 
low-income residents?
    Mayor Williams. Well, sir, the Anacostia Waterfront 
framework plan, which we are submitting as part of the record, 
as the Deputy Assistant Secretary was saying and as I refer to 
in my testimony, is a result of hundreds and hundreds of hours 
of effort involving literally hundreds of people, Congress, 
community people, and Federal agencies. One of the key 
components of the framework was to ensure that the benefits 
derived from regeneration of the river rebounded to the benefit 
of the adjoining neighborhoods. So they are contemplated in the 
framework with specific links between economic benefits on 
particular sites to housing, office, retail investments in the 
neighborhoods, between improvement in parkland along the river, 
to enjoyment of, and accessibility to, that parkland of 
neighborhoods along the river.
    Senator Akaka. Mr. Mayor, as the ranking member of the 
National Parks Subcommittee of the Energy Committee, I am 
concerned about the preservation of green space in the 
District. Could you please elaborate on how specifically the 
District intends to utilize the parkland set aside by the bill?
    Mayor Williams. Again, Senator, as part of the framework 
plan, we would inherit parkland and work in conjunction with 
the National Park Service. We would use that parkland to 
address a couple of key concerns. One is to ensure that by the 
maintenance of this parkland, the economic development that we 
are pursuing on the river is sustainable development. Clearly, 
the relationship to the inherited area of parkland is 
consistant with other regeneration efforts on the river, and is 
a key part of that development. For example, there is 
restoration of wetlands that is underway on the river. Part of 
that is the responsibility of the Army Corps of Engineers. 
There is combined sewage overflow clean-up, a billion dollar 
effort that we have solicited Federal help for and still need 
additional Federal help, I will say by way of an advertisement, 
of over a billion dollars to clean up the river, to ensure as a 
key theme that we have linked the difficult parcels together 
into one overall park complex.
    One thing that we worked with our Federal partners in 
doing, and the Department of the Interior and Environmental 
Protection Agency have been instrumental in this, is the 
beginning of a trail, a river walk that would link the entire 
river together on a level commensurate with what you see along 
the George Washington Parkway. If you look at a trail along the 
George Washington Parkway and you look at a trail along the 
river, they are really not comparable. You think you are in 
another world. We believe that every trail on an environmental 
basis ought to be first class in the District, and that would 
be a key component; and then, last, as mentioned earlier, to 
ensure that parkland is accessible to the residents that adjoin 
that parkland.
    Two examples of some of the things that we are doing with 
the Federal Government and Congresswoman Norton, in rebuilding 
some of the Federal infrastructure, is going to allow some of 
the residents along the Anacostia Park greater access to the 
park. The assumption of responsibility for Poplar Point will 
allow residents actual access to Poplar Point in a way they 
don't have access now. It is completely cut off by the usual 
roads, bridges, everything else.
    So those are key themes: Linkage, accessibility, 
sustainability.
    Senator Akaka. I want to really thank you, Mr. Mayor, for 
your responses. They have been very helpful.
    Mayor Williams. Thank you, sir.
    Senator Akaka. Mr. Chairman. I know my time has expired. 
May I ask just one more question to Mr. Hoffman?
    Senator Voinovich. Sure.
    Senator Akaka. Mr. Hoffman, is the Department of Interior 
satisfied with the parkland preservation requirements in this 
bill?
    Mr. Hoffman. Yes, sir, Senator Akaka, the Department of 
Interior is satisfied. I think many of these parcels of land, 
if you are to look at them, you would not think of them as 
national parks. You would not even think of them as parks. They 
have been used historically for other purposes over the years.
    The National Park Service within the District of Columbia 
fulfills a role very similar to the Bureau of Land Management 
in the west. Many of these lands are administered by the 
National Park Service, but they are not part of the national 
park system. So we do not look at this as trading out national 
parklands. It is a transfer of the administration, conveyance 
by deed in some cases, but where there is conveyance by deed, 
well, the school location by RFK is open space only that there 
isn't a building on it.
    The Poplar Point would have a deed requiring 70 of the 100 
acres to be retained as open space parkland and much of the 
land to be developed actually is being gained by the 
realignment of the bridge. So it does not constitute a loss of 
open space, and, in fact, for the National Park Service, the 
transfer back of jurisdiction of the platted roads that were 
never constructed enables us to block and manage contiguous 
units in a more park-like fashion to the benefit of the 
citizens of the District.
    Senator Akaka. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Akaka.
    This is a question for Mayor Williams and Mr. Hoffman: In 
S. 1838, there is a requirement for the District to relocate 
and replace the existing National Park Service facility that is 
located on Poplar Point before the District can develop the 
land. Has the District and the Park Service begun this 
discussion in regards to that facility? Mr. Hoffman, in your 
testimony, you mentioned concerns with the current language in 
the bill. Could you be more specific about concerns and that of 
the Park Service in regard to the facility?
    Mr. Hoffman. We have had preliminary discussions, but the 
goal in negotiating this package has been not to 
inappropriately tie the hands or reduce the flexibility of the 
City in pursuing options for the rereplacement of those 
facilities. The facilities are specifically the U.S. Park 
Police headquarters, and they have needs, but those needs are 
not necessarily tied to that specific location, and the city 
has, obviously, options for providing a replacement facility 
and location, and we don't want to unnecessarily tie the hands 
of either side in that. We want to make it very clear that the 
Secretary shall be able to approve the new facility and that it 
would be transferred to the U.S. Government at no cost to the 
Department of the Interior, and, of course, at no cost means 
without a mortgage; and those are basically the clarifying 
amendments, and we want to make sure that we have good 
communication and that we fully understand the ground rules by 
which those replacement facilities will be provided back to the 
U.S. Government.
    Senator Voinovich. Would these be new facilities or 
renovated facilities?
    Mr. Hoffman. As yet to be determined. They would be 
facilities that would be determined by the Secretary of the 
Interior to be appropriate replacement facilities. If that is 
renovated or new, we don't want to prejudge that.
    Senator Voinovich. Mayor, do you have any comment?
    Mayor Williams. We have had preliminary discussions with 
the department. I am sure we can come into agreement with 
something that is comparable with what they have over there 
now. We clearly want something a little bit better than what 
they have now over there. I would agree with Mr. Hoffman. We 
are not talking about pristine areas right now. They are really 
just land-banked areas where if you walked onto the site, you 
really wouldn't think of it is as a park.
    Senator Voinovich. The point is that, is it a condition 
precedent to move forward with the Poplar Point that this be 
resolved now, the issue of the facility?
    Mr. Hoffman. We don't believe it is necessary to resolve it 
at this time.
    Senator Voinovich. I asked this question because we have 
had an Army Reserve facility in Ohio that we have been trying 
to move since I was governor, and it has never happened.
    Mr. Hoffman. The incentive is with the District. If they 
want to pursue their Anacostia Waterfront Framework Plan, then 
they will want to move forward with the redevelopment of the 
Poplar Point land, and that will fund the replacement 
facilities as well as the environmental clean-up. So the 
incentive is all with the District to do that, and the bill 
provides that the U.S. Park Police can remain at the existing 
facilities at no cost until such replacement facilities are 
provided.
    So there is no harm to the Federal Government in this.
    Mayor Williams. I would agree with the Secretary. There is 
an enormous incentive for us to move, because, for example, 
working with the Congresswoman, Congress realigning, rebuilding 
the Douglas Bridge, re-thinking and envisioning South Capitol 
Street, the baseball stadium will be on that site, so to do all 
of that and then just everyone looking at us and saying what is 
happening with Poplar Point and then 3 years down the road, we 
are saying we still haven't moved the maintenance site, I mean, 
that is pretty embarrassing. So I think you are going to have a 
very powerful incentive to move on that and get it done.
    Senator Voinovich. I always talk about doing the doable. 
Poplar Point looks to me like it is doable. I have been down to 
see the area. Poplar Point seems to me something that could be 
developed pretty fast. So the incentive would be to try and 
work that out as soon as possible.
    Senator do you have any other questions?
    Senator Akaka. No other questions.
    Senator Voinovich. Again, I would like to thank you for 
your testimony here today, and we look forward to seeing the 
development.
    Mayor, you will be watching it, I am sure, from some other 
perspective.
    The hearing is adjourned.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 27033.001

[GRAPHIC] [TIFF OMITTED] 27033.002

[GRAPHIC] [TIFF OMITTED] 27033.003

[GRAPHIC] [TIFF OMITTED] 27033.004

[GRAPHIC] [TIFF OMITTED] 27033.005

[GRAPHIC] [TIFF OMITTED] 27033.006

[GRAPHIC] [TIFF OMITTED] 27033.007

[GRAPHIC] [TIFF OMITTED] 27033.008

[GRAPHIC] [TIFF OMITTED] 27033.009

[GRAPHIC] [TIFF OMITTED] 27033.010

[GRAPHIC] [TIFF OMITTED] 27033.011

[GRAPHIC] [TIFF OMITTED] 27033.012

[GRAPHIC] [TIFF OMITTED] 27033.013

[GRAPHIC] [TIFF OMITTED] 27033.014

[GRAPHIC] [TIFF OMITTED] 27033.015

[GRAPHIC] [TIFF OMITTED] 27033.016

[GRAPHIC] [TIFF OMITTED] 27033.017

[GRAPHIC] [TIFF OMITTED] 27033.018

[GRAPHIC] [TIFF OMITTED] 27033.019

[GRAPHIC] [TIFF OMITTED] 27033.020

[GRAPHIC] [TIFF OMITTED] 27033.021

[GRAPHIC] [TIFF OMITTED] 27033.022

[GRAPHIC] [TIFF OMITTED] 27033.023

[GRAPHIC] [TIFF OMITTED] 27033.024

[GRAPHIC] [TIFF OMITTED] 27033.025

[GRAPHIC] [TIFF OMITTED] 27033.026

                                 <all>

</pre></body></html>
